Case 17-32t+8. Docunretrt 171,0611412019,2586856, Pagel of 54

t7-3248 (L)
W.A. M.S. v. Hendrick [-luclson Central School District

l|n t\e

Wniteù åtsteg [,nutt of Øppeelø
for t!e

betsnù @ircuit
August Term, 2018

Argued:

February 2'J., 2019
Decided: lune 1.4, 2019

Docket Nos. L7-3248,

W.4., M.S.,
P

I

ain

17

-3373

IIVPTVIOUELLY AND ON BEHALT OT W.E.,

tiff s - C o uLn t er - D efen d an t s - App

ellees - Cr

oss-

App ell ant s,

V

HpNnnrcr HuosoN CBrurRel Scnool DIsrntcr,
D efen

d

an t- Co unt er - Cl

aimant- App ellønt' Cr o ss - App ellee.

Appeal from the United States District Court
for the Sor,rthern District of New York (Karas, /.)
No. 14-3067

Before
KEanse, Jncons, HRLL, Cit'ct'tit ludges
t The Clerk of Court is reqr,rested to amerrd the caption to conform to the above

CERTIFIED CCPY ISSUFD ON 06/1 412T19

T

Case 17-3248. Docutnetrt L7I, 061L412019,2586856, Page2 of 54

Appeal and cross-appeal frorn the September 73, 2077 juclgment of tl-re United
States District Cor,rrt for the Sor-rthern District of New York (Karas, /.) incolporating
its November 23,2016 opinion and order granting in part and denying in part the
parties' cross,motions for sllrìmary judgment and its July 18, 2077 oprnion and
order granting Defenciant's rnotion for summary judgment and denying Plaintiffs'
cross-motion. We hold that the district court properly deferred to the decision of
the New York State Review Officer ("SRO"), which concluded that student W.E.
was not deniecl a free and appropriate public education for the eighth-grade school
year and that Northwood School ("Northwood") was not an appropriate
unilateral private school placement for the ninth-grade school year, and thus
affirm the district court's November 23, 201,6 opinion and order to the extent it
granted summary jr-rdgment to Defendant. Because the district court failed to
accord appropriate cleference to the SRO's conclusion that Northwood did not
provide W.E. specially designed instruction so as to constitute an appropriate
private school placement for the tenth-grade school year, we reverse the portion
of the district court's November 23,201,6 opinion and order granting summary
judgment to Plaintiffs and vacate the award of tuition reimbursement to Plaintiffs
for that school year. We also affirm the district court's JuIy 78,2017 opinion and
order granting Defendant's motion for summary judgment and vacating the
award of compensatory education for the eighth-grade school year.
ArruRvEn IN

PAR'i',

RgvrRsen AND VACATED IN PART

DaNtEt- Pertcnow, (David H. Strong, on the
briefl, Thomas, Drohan, Waxman, Petigrow
& Mayle, LLP, Hopewell Junction, NY, þr
D ef en

d

an

t-

Count

er - Cl aim ant

-

App ell nnt - Cr

oss

-

Appellee.

Wtlllau A. WalsH, New York, NY (Erica
M. Fitzgerald, Littman Krooks LLP, White
Plains, NY, on the briefl , for Plaintiffs-CounterD efendønts- App ellees- Cr

2

os

s-

App ell an ts.

Case 17-3248, Docunretrt 17L. O6lL4l2O1'9,2586856, Page3 of 54

Catherine Merino Reisman, Ellen Saideman,
Selene Almazan-Altobelli, Towson, li1rD, for
Amíarc Curine Council of Parent Attorneys and
Adaocates, Inc.

HaLL, Cit'cttít Judge:

In the United

States

District Court for the Southern District of New York

(Karas, /.), W.A. and M.S. ("the Parents"), individually and on behalf of their son,

W.E., commenced two actions against the Hendrick Hudson Central School

District ("the District") under the Individuals with Disabilities Education Act
("IDEA-),

20 U.S.C. S 1400 et

seq.

W.E,. attended public school in the District and

began suffering from conventional and abdominal migraines during middle
school, which caused him to miss over 100 days of eighth

grade. The District

eventually classified W.E. as suffering from a disability under the IDEA's "other

health impairment" designation, but the Parents were not satisfied with the
individualized, education program the District prepared for W.E.'s upcoming

ninth-grade school

year.

The Parents removed W.E. from the District and

enrolled him at Northwood School ("Northwood"), a private schooi in the
Adirondacks, for his ninih- and tenth-grade school years. While at Northwood

a
.)

Case 17-3248, Docutrretrt L71-,0611'41201"9,2586856, Page4 of 54

W.E.'s absences from school diminished significantly, and he exper"ienced notable

improvement in his social and academic engagement'

Following administrative hearings before a New York State Impartial
Hearing Officer ("IHO") and cross-appeals before

a State

Review Officer ("SRO"),

the Parents brought these two federal court complaints pursuant to Section 1415

of the IDEA, 20 U.S.C.

S

1415(iX2XA). In Case One, the Parents alleged that the

District violated W.E.'s right to a free and appropriate public education ("FAPE")
for his eighth- and ninth-grade school years (2010-11 and2011'-12) and challenged

the SRO's ruling of January 31, 2074, which held that Northwood was not an
appropriate placement for ninth gracle. In Case Two, the Parents challenged the

March 78,20L4 decision of the SRO and asserted that the District violated W.E.'s
right to a FAPE for his tenth-grade school year (2072-13); they again sought tuition
reimbursement for their unilateral placement of W.E. at Northwood for tenth

grade.

The two actions were consolidated by the district court

On November 26, 20L6, the district court affirmed the SRO's ruling in Case
One in all respects but declined to defer to the SRO in Case Two, holding instead

that Northwood was an appropriate placement during tenth grade and ordering

that the District reimburse the Parents for W.E.'s tuition at Northwood for that

4

Case L7-3248, Documetrt 171, O61L4120I9,2586856, Page5 of 54

year.

See

W.A. a. Hendrick Httdson Cent. Sch. Dist., 279 F. Sr-rpp. 3d 427 (S.D.N'Y'

It

also granted the District's motion to amend to add a counterclaim

2076).

regarding costs awarded by the IHO in Case One. Id. at 484. On July 18,2077,
the district court granted summary judgment to the District on the counterclaim,

vacating the award

of

compensatory education

in the form of

counseling

reimbursement for the eighth-grade year based on its affirmance of the SRO's

ruling that W.E. was not denied a FAPE for that academic year.l
Hendriclc Hudson Cent. Sch, Dist.,

No.

74-CV-3067 (KMK), 2017

See

WL

W'4.

rt

3066888

(S.D.N.Y. July 1'8, 2017)

The District appeals the portion of the district court's Novembet 23,2076

decision and order awarding summary judgment to the Parents and ordering
reimbursement of W.E.'s tuition for his private education at Northwood during
W.E.'s tenth-grade

year. The Parents cross-appeal the portion of the district

court's November 23,2016 opinion and order awarding summary judgment to the

District and holding that the District did not violate its "Child Find" obligation

IDEA, "compensatory eclucation is an available option . . . to make up for denial of a
free ancl appropriate public edr-rcation." P. ex rel. Mr. ntd Mrs. P. u. Neutirtgton Bd. of 8d.,546 F.3d
111, 723 (2cl Cir. 2008).

1 Uncler the

5

Case L7-3248, Document 171-,061L412OI9,2586856, Page6 of 54

under the IDEA2 and thus did not deny W.E. a FAPE for the eighth-grade year in
accord with its statutory obligations, ancl further holding ihai Northwoocl was not

an appropriate placement for W.E.'s ninth-grade school year so as to entitle the
Parents to tuition reimbursement for W.E.'s private edr,rcation during ninth grade

The Parents also cross-appeal the district court's July 18, 2017 opinion and order

awarding summary judgment to the District and vacating the award of
compensatory education for the eighth-gracle school year
Because

we hold that the district court properly deferred to the SRO's

conclusions regarding the timeframe during which the District's Child Find

obligation was triggered and its ruling that Northwood failed

to

plovide

meaningful counseling or specially designed instn-rction for W.E.'s ninth-grade
academic yeaÍ, we affirm the district court's November 23,2076 opinion and order
as to Case

One. However,

because the district court did not defer to the similarly

well-reasoned opinion of the SRO which held that Northwood failed to provide
specially designed instruction for the tenth-grade academic year in spite of W.E.'s
progress in the private school placement, we reverse the district court's November

"ChiÌd Find" obligation is explairred in the context of our discussion of the statutory
frarrrework , see infrn, slip op. Pp.7-8.

2 The IDEA's

6

Case 17-3248, Document 171-, 0611'41201'9, 2586856' PageT of 54

-fwo and vacate the award of
23, 2016 opinion and order with respect to Case
tuition reimbursement for the tenth-grade academic year. We affirrn the district
court's July 18, 2017 opinion and order granting the District's motion for summary
jr-rdgment and vacating the award of compensaLory education for the eighth-grade
school year

BACKGROUND

I.

Statutory Framework

This case arises under the IDEA, 20 U.S.C. S 1400 et seq. The IDEA was
designed, inter alia, to protect the rights of children with disabilities as well as the

rights of their parents and "to ensure that all children with disabilities have
available to them a free appropriate public education ["FAPE"] that emphasizes
special education and related services designed to meet their unique needs and
prepare them for further education, employment, and independent

living."

Id'S

1400(dX1XA). The IDEA enforces a "Child Find" obligation which "requires
each State

to have policies and procedures to ensure that all children with

disabilities are identified and evaluated
services." Mr. P a.W. HartfordBd.
139 S. Ct. 322 (2018)

A

for speciai education and related

of Ë,dtrc., BB5 F.3d735,749 (2d Cir.), cert. denied,

school district must conduct an evaluation of a child

7

Case l-7-3248, Docunrent 171, 0611-41201'9, 2586856, PageB of 54

suspected of suffering a disability

"notice of a likely

disability."

"within a reasonable time" after it

receives

Id. at750

The IDEA also requires that school districts create an individualized
education program ("IEP") for each qualifying
E

dtLc., 694

F

.3d

L67

child.

, 175 (2d Cir. 2012) (citing 20 U.S.C.

S

See

R.E. o. N.Y'C. Dep't of

1414(d)). "The IEP is the

centerpiece of the IDEA's education delivery system for disabled children" and
serves as the means by which the State delivers a disabled child's
BB5

FAPE. Mr' P,

F.3d at741(internal quotation marks and brackets omitted). It constitutes "a

written statement that sets out the child's present educational performance,
establishes annual

and short-term objeclives for improvements in

that

perfolmance, and describes the specially designed instn-rction ancl services that

will enable the child to meet those objectives." R.8.,694F'3d at 175 (quotingD.D.
ex rel, v,D. a. N.Y,C. Bd. of Edrtc., 465 F.3d 503,507-08 (2c1 Cir. 2006)).

in New

York, local Committees on Special Education ("CSEs") are responsible for
developing IEPs and are tasked with identifying an educational program tailored
to the student's particular needs and achievement

levels'

See

id

parents who believe a child has been denied a FAPE may enroll the child in

a private school at their own financial risk and seek retroactive reimbursement

B

Case 17-3248, Docurnent 171, 061L41201'9, 2586856, Page9 of 54

from the school district for the cost of the private school. A.C. ex rel. M.C. a. Bd
of Ectr.rc. of The ChnppaqtLa Cent. Sch. Dist.,553 F.3d 765, 777 (2d Cir. 2009). in New

York, such claims are first adjudicated before an IHO and may then be appealed
to rhe

SRO.

See

R.8., 694F .3d at 775 (citing N.Y. Educ. Law

SS

4404(1)-(2)). The

IDEA provides for judicial review of the SRO's decision by a federal district court.
Id. (citing2O U.S.C. S 141s(iX2XA))

II.

Factual Background

W.E. attencled public school in the District through the eightir grade.

He

performed well and was engaged in several extracurricular programs until the

sixth

grad.e,

when he developed severe internal pain that lecl to an emergency

appendectorny and caused him to miss at least 26 days of school.

W.E. was

diagnosed with abdominal migraines which persisted throughout seventh grade

and which were increasingly compounded by conventional migraines, causing
him to miss at least as many school days

as he

had the prior

year. His headaches

continued to worsen through the spring of seventh grade when W.E.'s mother,

9

Case 17-3248, Doctrr.nent i-71, 0611412019, 2586856' Pagel-0 of 54

3
M.S., referred W.E. to the District's Section 504 Committee and requested
tutoring, which the District approved'

As part of the Section 504 process, Dr. Richard Brodsky, the school
psychologist, performed

a

psycho-educational evaluation

of W'E'

That

evaluation yielded above-average scores on a cognitive test measuring W.E.'s
"General Intellectual

Ability."

W.A., 219 F. Srrpp. 3d at

430.

Except for math

fluency, in wirich W.E. fell into the "low average" range, the evaluation also
yielded average to advanced scores on a number of subtests targeted to measure
academic achievement.

Id. Dr. Brodsky also administered

the Behavior

Assessment system for Children-second Edition ("BASC-2") to W.E. and to two

of his teachers on W.E.'s behalf. That assessment generated "at-risk" scores in
the areas designated "Relations to Parents" and "Attitudes Towards School." Id.
One of W.E.'s teachers also produced a "clinically significant score" reflecting "a
l-righ level of maladjustment" as a result of W.E.'s somatization.

Id.

In June

20j,0, the Dist¡ict's Section 504 Committee met and found W.E. eligible

accommodation based upon his migraine

for an

disability. The accommodation

3 As the clistrict court explainecl, "[a] Section 504 committee is so named as a reference to $ 504 of
tlre Relrabilirarion Act," 29 U.S.C. 9794. W.A.,279 F. Supp. 3d at429 n.7.

10

Case l-7-3248, Docr-rtneni l-71, 06lI4l2OI9, 2586856, Pagel-1 of 54

consistecl of extra time to complete assignments, nursing services as needecl, ancl
access to class notes and home

tutoring

W.E.'s eighth-grade year was increasingly fraught, with his migraines
causing him to miss a total of more than 100 school

days. Although he did well

in some classes, he struggled in others, missed some state exams, and became more

socially isolated. W.E. received some of the tutoring to which he was entitled
uncler his Section 504 plan, but the Parents were not satisfied with the assigned

tutor, and efforts to find a replacement interrupted the tutoring before it was
recommenced. In December

207A, M.S.

notified the District that she observecl her

son to be in "crisis" and requested certain interventions; she also contacted Dr

Brodsky, who lecommended private relaxation counseling for W.E.

Id. at 433.

Per M.S.'s request, the District scheduled a rneeting for January 5,2077, to review

W.E.'s Section 504 plan, but M.S. later emailed Caroline Almeida, the District's
Assistant Director of Pupil Personnel, to suggest canceling the meeting in lighi of
W.E.'s progress over the winter break and M.S.'s understanding that he "had all
the program rnodifications in

place."

Id. at 434 (brackets omitted)

In nrid-January 2077, the Parents began the process of looking into
school for W.E.'s r,rpcoming ninth-grade

year.
1,1

a

private

M.S. and W.E. visited Northwood,

Case 17-3248, Docr-rrrrent l-71, 061L4l201'9, 2586856' Pagel-2 of 54

a

boarcling school in the Adirondacks, in late February 2077. The school is a self-

described small college preparatory school that strives to incorporate the values of

integrity, compassion, responsibiiity, courage, and respect into its pedagogy and

operations. During this initial visit W.E. grabbed M.S.'s coat and asked, "Can I
go

here?" Id. at 438. W.E. was admitted, and the Parents paid a deposit

and

signed an enrollment contract in March 2011. Later that spring M.S' and W.E

visited Northwood again with W.A. and confirmed W.E.'s intent to attend in the
fall.

Meanwhile, throughout the spring of W.E.'s eighth-grade year, discussions

with the District

continr-red

.

By April 2011 the Parents had referred W.E. to the

local CSE, to determine his eligibility for special education services under the
IDEA's "other health impairment" ("OHI") classification; they also requested an
emergency Section 504 meeting, which Ms. Almeida promptly scheduled.

tlrat meeting of April 15, 2077, the Section 504 Committee

At

recommended

counseling. Dr. Brodsky suggested it should take place outdoors. The Section
504 Committee also recommended that a psychiatric evaluation be conducted in

pr-eparation for the upcoming CSE meeting. An evaluation was scheduled with

a psychiatrist named Dr. Hahn. Dr. Hahn prepared a report based on his
1.2

Case 17-3248, DocLtnretrt L7I, 061L412019,2586856, Page13 of 54

consultation with M.S. but was not able to evaluate W.E. due to his migraines
ancl/or

anxiety. His report recommended a holistic approach to helping W.E

learn how to cope with his stress, including bio-feedback and relaxation methods,

mindfulness trainin g, play therapy, and access to an outdoor adventure-based
Program.

The CSE meeting was held on Muy 25, 201,1,, without a psychiatric
evaluation. The Parents took issue with a number of aspects of that meeting,
including the District's failure to include a parent on the CSE. In advance of a
follow-up CSE meeting on August 26, 20LL, the Parents submitted letters from
three different clinicians who recommended a smaller school environment for
W.E. or a non-mainstream placement. The CSE ultimately ciassified W.E' as a
student with a disability under the OHI designation. A draft IEP recommended

twice-weekly individr-ral counseling, program accommodations consisting of
access to class notes, nursing services, and extra time for completing assignments,

and classes with a student-to-staff ratio of

B:L:1

Kathleen Coughlin, the District's director of Pupil Personnel Services, later

testified that she discussed two programs at the August 2011 CSE meeting that

mighl meet W.E.'s neecls for his ninth-grade year: the BOCES (Board of
1.3

Case 17-3248. Docunretrt

171",

06114120L9,2586856, Page14 of 54

Cooperative Eclucational Services) program in Sor,rthern Westchester and the one
in Putnam Northern Westchesier. According to Ms. Coughlin, she expiained to
W.E,.'s Parents that neither option could be recommended as a final placement

until the referral process was complete but that the CSE could offer interim home
instruction pending completion of an expedited referral process. The Parents

ultimately concludecl that BOCES was not an appropriate placement for W.E
They formally withdrew W.E. from the District by letter dated August 30,2077.4
W.E. began private school at Northwood at the start of his ninth-grade
school
B:1

year. At Northwood

the student-teacher ratio in W.E.'s classes was below

and W.E. was assigned a nurse as a faculty advisor; another nurse lived on his

dormitory

floor.

Some classes were structured around a large oval table so as to

require participation from all students, and the school incorporated organized

study periods as well as outdoor activities into its educational structure
Northwood ensured that W.E.'s teachers were aware of his accommodation plan,

which required that W.E. receive additional time for in-class
preferential seating, graphic organizers or guided notes

assignments,

to facilitate verbai

In November 2077, the Parents visited the programs reconmended by the CSE and learned that
botlr hacl a sttrderrt-to-teacher ratio of 72:1'.7 as opposed to the B:1:1 ratio proposed in W.E.'s drait

a

IEP.

74

Case 77-3248, Doctttlretrt 17I, 06lL4l2OI9,25B6B56, Page15 of

5zi

lectures, and regular sessions with the school counselor. W.E. earned passing
grades in all of his ninth-gracle classes and, moLe notably, missed only nine days

of school clue to his migraines. FIe also grew more socially adjusted, received
positive feedback from teachers, and tapered off his moocl-stabilizing meclications

Dr. Williams later testified that Northwood "appeared to be highly appropliate
for W.E. as reflected in his dramatic improvement in headache frequency that had
persisted for the first tirne in previous years beyond the summer well into the fall
term and its conclusion." Id. at 442 (fuackets

omitted).

Some of W.E.'s teachers,

however, indicated that he struggled with organization skills, preparing for class,
and handing in assignments on time and that his grades were below his potential.

One teacher cited W.E.'s poor behavior in an incident in which she needed to
remove him from class due to rude remarks he made to another student. In
February 20\2, Northwood accepted W.E.'s re-enrollment for his tenth-grade year

In April

2072, the District began formulating a program recommendation

for W.E.'s tenth-grade year despite W.E.'s attendance in private school. Reports
provided by W.E.'s teachers at Northwood noted his lack of organization, missing
class assignments, and stress-triggered rnigraines alongside his strong intellectual

abilities. A February 2012 BASC-2 test showed significant improvement in
15

Case 17-3248, Docr-rnrent l-7i-, 06lI4|2OI9, 2586856, Page16 of 54

W.E.'s attitucle towarcl school, but the BASC-2 completed by orre of W.E.'s teachers
at Northwood rated W.E. "as clinicaily significant for somatization and at risk for

social

skills." Id. at 443.

The CSE held W.E.'s annual review meeting on June

14, 20L2. Dr. Wiltiams sent a letter to the CSE

in advance of that meeting

describing W.E.'s "remarkable" progress, which he attributed

in part to his

placement at Northwood; Dr. Williams recommended that W.E. not undergo any
change of placement for the upcoming

year. Id. At the meeting

the Parents also

shared their view that W.E. was experiencing fewer migraines, earning average
grades, and engaging in various outdoor activities at

Northwood. The IEP that

was finalized for W.E. recommended a student-teacher ratio of B:1:1 and
participation in Southern Westchester BOCES at Irvington High School's TSP
(Therapeutic Support-Fragile Program). The Parents expressed concerns with
this prospective placement to District officials during a subsequent CSE meeting
in August 2012. They rejected the IEP by letter dated September 20,2072
W.E.'s accommodation plan for his tenth-grade year at Northwood included
the four previous accommodations from his ninth-grade year as well as three new

accommodations: use of an iPad in class, a supervised study hail, and access to
school

a

nurse. In addition to continuing what was essentially informalcounseling
16

Case 17-3248, Docttt.nent l-71, 06lI4l2O1'9. 2586856. Page17 of 54

from the prior year with Donald Mellor, an English teacher and Northwood
counselor, Dr. Williams advocaied

for "a more systematic psychotherapy

program," and in the spring of his tenth-grade yeal' W.E. began meeting weekly

with a private social worker. Id. at 446-47. Repolts from

W.E,.'s teachers

throughout his tenth-grade year were again inconsistent, containing a mixture of
praise for his academic achievement and criticism of his lack of organization,
uneven

performance, intermittent lack

of

engagement,

and

occasionally

inappropriate behavior. W.E. was also able to play soccer and participate in an

outdoor program in Yellowstone and seemed to grow in his social comfort and
confidence, though he experienced an especially severe migraine

in May 2013

Several clinicians later testified that Northwood was appropriate

for

W.E.'s

emotional and mental health needs

III.

Administrative Proceedings

A.

Case One: The Eighth- and Ninth-Grade School Years

IHO Hearing and Decision
In November

201.7,

W.E.'s Parents requested an impartial hearing, asserting

that the District denied W.E. a FAPE for W.E,.'s eighth- and ninth-grade academic

years. The Parents sought reimbursement for W.E.'s tr-rition at Northwood for
1.7

Case 17-3248, Doctil]-letrt 171, 0611412019. 2586856, Pagel8 of 54

linth

grade and compensatory counseling services

year. A hearing
1

fol the eighth-grade

school

was conducted before an IHO over nine days between February

and April 2,2012.

On May 30,2012, the IHO issued a37-page decision in which it concluded
that the District violated its Child Find obligation and failed to provide W.E. with
a FApE for W.E.'s eighth-grade

year. According to the II-IO,

the District's Child

Find obligation was triggered by January 3 of the eighth-grade school year, by
which time W.E. had exhibited a pattern of missing an increasingly high number

of school days for health reasons and numerolls

teachers had reported being

unable to issue grades for W.E. due to missing assignments. The IHO also noted
M.S.'s outreach to Dr. Brodsky during Decernber 2070, which the IHO found also

should have put the District on notice even in the face of M.S.'s sometimes
conflicting signals about the status of her son's wellbeing. Additionally, W.E.'s

clinically significant score regarding somatization on the BASC-2 from the
previous spring had already triggered the accommodations that were developed
in W.E.'s June 2010 Section 504 plan, and the IHO noted that by January 3,201'1', it
should have been apparent to the District that this earlier plan was not fulfiliing
W.E.'s needs. The IHO further concluded that had the CSE timely convened, the

1B

Case 17-3248, Docutlerrt l-71-, 0611-4l2OIg. 2586856, Page19 of 54

record evidence would have supported a fincling that W.E. satisfied the criteria for
the IDEA's OHI designation

The iHO ordered the District to reimburse W.E,.'s Parents for therapy
sessions that provided Dr. Williams the diagnostic information used in preparing

his August 2011 evaluation report and which the District relied upon in
developing W.E.'s

IEP. It also ordered reimbursement for five therapy sessions

provided byDr.Andrew Robins during W.E.'s eighth-grade year and payment for
an additional fifteen hours of counseling. The IHO, however, denied the Parents'

request for 200 hours of compensatory edr-rcation in the form of tutoring, due to

their failure to demonstrate that W.E. was in need of academic remediation.
As for W.E.'s ninth-gra de year, the IHO concluded that the District failed to

provide W.E. a FAPE by neglecting to complete timely its evaluation of W.E. and
arrange for an appropriate placement for that school

year.

The IHO rejected the

District's argument that the Parents' failure to produce W.E. f.or a psychiatric
evaluation excused its failure to evaluate W.E. within the 60-days required by

applicable State regulations, reasoning that "the District had the affirmative
obligation to get the evaluation conducted even if it meant sending a psychiatrist

79

Case 17-3248, Docurrretrt 171, 06l14l2OI9. 2586856, Page20 of 54

to the student's honte" if it thought the evaluation
Sr-rpplernental Appendix ("Sp'

Stpp' App.")

necessary-

s

Special

28

Even though the IHO found that the District clenied W.E. a FAPE, it ruled

that the Parents were not entitled to tuition reimbursement because they did not
meet their burden of proving that Northwood was an appropriate placement for

W.E. After reviewing in detail the relevant evidence presented by the Parents,
including testimony offered by Dr. Williams, Dr. Robins, and Mr. Mellor, the IHO
concluded that there was no evidence that Northwood was tailored to addressing
any of W.E.'s psychological or emotional issues, which the weight of the testimony

indicated were the underlying triggers of his migraines. The IFIO noted that
Northwood does not have a psychologist or psychiatrist on staff and that the only
counseling W.E. received at Northwood was in the form of informal check-ins

initiated by Mr. Mellor. The IHO also found that while W.E. achieved "average
to excellent grades," he continued to exhibit struggles with organization and study

skills, which Northwood did not work with him to remedy. Id. at 37. As for

5 The IHO rejected the Parents' argumerrt that the District's failure to include a parent rtember
on the CSE deprived W.E. of a FAPE but for-rnd that the District's failure to include a special
eclucatio¡ teacher as well as a general education teacher r,rrho was familiar with W.E- on the CSE
contributed to the District's violation of the iDEA.
70

Case 17-3248, Docutllent 171, 061141203-9, 2586856, Page2I ot 54

equitable considerations, while not required to weigh them

in light of its

conclusion that the Distr"ict's reimbursement obligation was not triggered, the IIIO
nonetheless noted that W.E.'s Parents fully cooperated with the District and did

not impede the CSE process. The IHO rejected the District's argument that the
parents never intended to send W.E. anywhere but Northwood, finding instead

that they were open to the District's recommendations and "lived with vely real
uncertainty about whether" W.E. would be able to attend Northwood as they had

hoped.

Id.

ii.

SRO Appeøl and Decision

The Parents appealed the IHO's denial of reimbursement and request for
compensatory education services to the SRO and the District cross-appealed the
IFIO's finding that the District denied W.E.
school

years.

a

FAPE for the eighth- and ninth-grade

The SRO ruled that, contrary to the IHO's finding, the District did

not have reason to suspect that W.E. had a disability requiring special education

prior to April 2011 due to W.E.'s overall positive educational progress with the
accommodations the District provided him in the Section 504 plan developed in
June

2010. In reaching this conclusion, the SRO cited frequent comtnunications

between W.E.'s Parents and the District's personnel between winter 2010 and

27

Case 17-3248, Docutlerrt i-71, 0611-41201'9, 2586856, Page77 of 54

spring 2011 evidencing the District's commitment to fulfilling W.E.'s June 2010
Section 504 plan, M.S.'s incidences of retracting earlier requests for intervention in

the face of W.E.'s improvement and in the interest of maintaining "normalcy" for
her son, W.E.'s high level of academic achievement as reflected on his eighth-grade

report card and state exams, and positive feedback from teachers regarding W.E.'s

intellectual abilities, behavior, and attitudes. Id. at 69-72. The SRO also found
that W.E.'s BASC-2 results from the previous spring were not enough to put the

District on notice given that the report did not cite any history of academic
difficulties or current interventions and Dr. Brodsky's report otherwise credited
W.E,.

with appropriate to

of

attention, intelligence,

skills.

The SRO accordirrgly

above-average levels

conceptual thinking, language, and academic

reversed the IHO's finding that the District violated its Child Find obligation for
W.E.'s eighth-grade school

year. And it affirmed

the IHO's denial of the Parents'

request for 200 hours of compensatory home instruction while declining to disturb

the awarcl of counseling reimbursement based on its understanding that the
District did not appeal that aspect of the IHO's ruling
As for W.E.'s ninth-grade year, the SRO concluded that the District vioiated

tlre IDEA by failing to have a finalized IEP in place at the start of ninth grade; it

22

C¿rse 17-3248.

Doctttletrt L7L, 0611412019,2586856, Page23 of 54

therefore affirmed the II-IO's ruling that W.E. was denied a FAPE for that year
The SRO next affirmed the IHO's fincling that Northwood was not an appropriate

placemerrt for W.E. entitling the Parents

to tuition reimbursement. After

reviewing the relevant evidence, the SRO concluded that while W.E.'s social,
emotional, and academic functioning improved at Northwood

the hearing record lacks evidence demonstrating that INorthwood]
provided instruction that was designed to address the student's tendencies
to develop physical symptoms and exhibit school avoidance when under
stress, or his need to deveiop coping skills to manage stress related to
academics and social interactions, and to improve his organizational/study
skills related to academics, and, that the instruction that the student received
clurirrg the 2011-12 school yeaÍ wa1 in fact, available to all students enrolled
at INorthwood]. The hearing record fully supports the IHO's
cletermination that the parents presented no evidence that the student's
unclerlying ernotional issues, organizational issues, or study skills were
adclressed by [Northwood].
Id. at 84_-85. In light of its conclusion the SRO declined to consider whether the
eqr,rities supported the Parents' claim.

B. Case Two: The Tenth-Grade School Year
IHO Henring and Decision
The Parents filed their Case Two complaint notice in April 2013, alleging
that the District failed to provide W.E. a FAPE for W.E.'s tenth-grade school year
and seeking ir,rition reimbursement for that year at

23

Northwood. Foilowing

a six-

Case 17-3248, Docurtnetrt 171',061L412019,2586856, Page24 ot 54

day hearing, the II-IO issued a decision on December 77,2073, in which it
conc|-rdec-l that the District's IEP process failed to account for W.E.'s exlraorclinary

characleristics and that the resultant IEP was not responsive or appropriately

tailored to W.E.'s needs, thus denying W.E. a FAPE during his tenth-grade year.

In so ruling, the IHO separately addressed what it identified as the District's
allegecl proceclural and substantive violations

of the IDEA. In the former

category the iI-lO found that by recommending both a student-teacher ratio of

B:1

and mainstream placement in Math, Englisþ and Science (which have a studentteacher ratio

of 24:I), W.E.'s iEP contained an internal inconsistency, which

the

District never attempted to reconcile. The IHO declined to reach the alleged
substantive violations in light of its conclusion that the District's IEP constituted

a

procedural violation that denied W.E. a FAPE but noted W.E.'s "significant social
and educational progress in the prior school yeat at"

Northwood. Supplemental

Appendix ("Supp. APP.") 726.

The IHO next ruled that by "providing the Student with educational
instruction specially designed to meet his needs, including certain neccesary[sic]
support services," Northwood was an appropriate placement for

W.E'

Id. a\727.

The IHO noted that Northwood's small class size comported with W.E.'s IEP, and

24

Case I7-3248. Docunretrt 171, 061L412019,2586856, Page25 of 54

that Northwood assistecl W.E. with his need for organization during a free period,

in acldition to provicling two supervised study halls and a nightly study session
monitored by u facr-rlty member.

It

also found that Northwood's lesidential

environment cornbined with its mountain iocation and integration of outdoor,
stress-relieving activities rendered

"it uniquely suited to address the Student's

migraines." Id. at 729. The IHO additionally emphasized Northwood's
development of an accotrmodation plan that was tailored to W.E.'s needs, the

informal counseling sessions the school provided W.E. on a regular basis, and

Northwood's ability

to deliver

24-hour-a-day nursing services.

It

ruled

accordingly that the Parents were entitled to tuition reimbursement

ii.

SRO Appeal ønd Decision

On March 78, 2014, the SRO issued a decision in which it agreed with the

IHO's findings regarding the internal inconsistencies in W.E.'s iEP and thus
affirmed the IHO's ruling that W.E. was denied a FAPE. The SRO, however,
reversed the portion

of the IHO's decision ruling that Northwood was an

appropriate placement fol

W.E. The SRO reviewed the relevant testimony and
25

Case 17-3248, Docutt.netrt I7L,061L412OI9,2586856, Page26 of 54

evidence in detail ancl for-rnd that

it was "without question that during

13 school yeat, the student exhibitecl progress

the2072-

in the sense that except when

experiencing a migraine, he attended classes consistently, achieved grades in the

'A-' to'C+' range, ancl demonstrated increased maturity and ability to socially
interact with peers." Id. at L09. Despite the accommodations and amenities
available at Northwood, the SRO concluded that

the hearing record cloes not contain evidence that [Northwood] provided
the stud.ent with specially designed instruction to meet his ongoing need to
develop insight and understanding into what triggered his stress and
anxiety, and positive coping skiiis to address stress and decrease anxiety;
difficulties that the hearing record showed not only contributed to the
student's tendency to develop migraine headaches, but also to exhibit
organízational deficits and avoidance behaviors.

Id.

The SRO also noted that while W.E,. appeared to have benefitted from his

informal counseling with Mr. Mellor, the hearing record did not contain any
counseling notes, progress reports, or other records indicating that the counseling
was addressing W.E.'s "need to develop insight and coping skills," and that while

W.E. eventually participated in more systematic counseling with a private social

worker later in the school year, there was similally no evidence showing how tiris
private counseling was tailored to W.E.'s needs.

Id.

And even though W'E

achieved satisfactory grades throughout his tenth-grade year, the SRO observed

10

Case 17-3248, Docutletrt 17L O6lL4l2OL9,2586856, Page27 of 54

that "he continued to exhibit organizational and motivationaVbehavioral
difficulties at times in his class." Id. at 770. The SRO found that Northwood
offered W.E. accommodations that were available to virtually all other students,
but that the record lacked evidence showing how Northwood "provided specially
designed instruction to address the student's organizational

difficulties."

Id

The SRO ruled accordingly that lhe Parents failed to carry their burden of
demonstrating that Northwood was an appropriate placement

IV.

District Court Proceedings

The Parents sought judicial review of each of the SRO's decisions. Their

first federal court complaint, filed on April 30,2014, challenged the SRO's decision
in Case One and sought reimbursement of home instruction and counseling costs
for W.E.'s eighth-grade school year and tuition reimbursement for their unilateral
placement of W.E. at Northwood for the ninth-grade school

year. The second

complaint, filed on June L3,20L4, challenged the SRO's decision in Case Two and
sought tuition reimbursement for W.E.'s placement at Northwood for the tenthgrade academic

year. The two cases were

consolidated in September 201,5, and

the parties filed cross-motions for summary judgment

A. Case One
27

Case L7-3248, DocLrtnetrt 1'7I.061I412O1"9,258G856, Page28 of 54

With respect to W.E.'s eighth-grade year, the district court found "no reason
to disturb the SRO's reasoned analysis," concluding that the District dicl not deny

W.E. a

FAPE. W.A., 279 F. Srpp.

3c1

at 458. While the district court

acknowledged the Parents' emphasis ou W.E.'s clinically significant somatization
scores from seventh grade and incomplete grades from his eighth-grade second-

quarter, among other signals that the Parents alleged should have put the District
on notice of W.E.'s disability, the district court noted that "[t]he crux of the SRO's

decision, however, was not so much that there was no basis to suspect that W.E'
may be disabled, but that there was no reason to suspect that special education was
needed to remedy that

disability." Id. at 457. Given that the SRO thoroughly

considered W.E.'s progress

in the general education

curriculutn with

the

accommodations provided in his Section 504 plan, as well as his performance on

standardized tests and psychological evaluations and feedback from his teachers,
and given that the SRO weighed testimony from M.S. and from W.E.'s counselors,

neurologist and a private psychologist, the court found the SRO's conclusions
supported by the

record. In this regard

the district court found that "the SRO's

decision stood on more solid conceptual footing than the

2B

IHO's."

Id. at 459

Case 17-3248, Doct-¡rnetrt 171-, 06lI4l2O19, 2586856' Page29 of 54

As for the issue of tuition reimbursement', the district court noted as an
initial matter that the District did not challenge the SRO's conclusion in each case
that W.E. was denied

a

FAPE for his ninth- and tenth-grade years and that it would

therefore skip directly to the reimbursement analysis. The court deferred to the
SRO's conclusion in Case One that Northwood was not an appropriate placement

for W.E.'s ninth-grade year but held that the SRO's conclusion in Case Two was
neither well-reasoned nor persuasive. While the records in both cases would

appear relevant

to the common question of

appropriate placement, and while

whether Northwood was an

the same SRO presided over

both

administrative appeals, the district court noted that it would attempt to analyze
the issue separately in the context of each of the two school years, "[g]iven the
material differences between the SRO's two opinions in terms of quality and
persuasiveness." Id. at 463

The district court found the Parents' chalienges to the IHO and
decisions unconvincing

adequate stock

in

Case One, noting that both the

SRO

IHO and SRO took

of the available evidence and that any reputed flaws in

the

opinions were ultimately insufficient to strip them of the deference to which they

were otherwise entitlecl. The district cor-rrt also independently assessed the
29

Case 17-3248, Docunrent 171-, 06lI4l2O1-9, 2586856, Page3o of 54

Parents' arguments regarding Northwood's appropriateness as a placement for
W.E.'s ninth-grade year and concluded that the substantial irnprovetnent in W.E.'s
attendance record could not alone satisfy the

Parents'burden. W.E.'s grades and

positive response to the Northwood culture did not lead the district court to
question the IHO's and SRO's reasoning. Nor did the district court think it was

in a position to question the state officers' determination that W.E.'s counseling
was not tailored to his

needs. The district court did note that it found the SRO's

reasoning regarding Northwood's smaller residential setting unpersuasive given

the evidence that W.E. was in need of a smaller school environment, but that this
factor was not sufficient to undermine the SRO's opinion. The court reached

a

similar conclusion regarding the SRO's finding that Northwood's accommodation

plan was not responsive to W.E.'s needs, and noted that the fact that other
Northwood students received the same accommodations did not speak to their
efficacy or appropriateness for

W.E. Despite the flaws that the district

court

identified in the SRO's opinion, the court agreed tl-rat the Parents did not satisfy

their burden of showing that Northwood was an appropriate

placement,

especially in light of the SRO's analysis regarding Northwood's failure to offer

30

Case l-7-3248, DocLlrrlelrt 171. 061L412019, 2586856, Page31 of 54

meaningful counseling or vehicles for addressing W.E.'s organizational and stressrelated issues

B. Case Two
Althougtr the same SRO presided over both appeals, the ciistrict court found
its reasoning deficient in Case

Two. It noted that "although the SRO provided

thorough recitation of the facts on the record,

a

it dedicated barely two pages to

acttrally analyzing whether Northwood was an appropriate placement." Id. at

470.

The district court found that the SRO ptaced undue emphasis on W.E.'s need

to cope with

stress

at the

expense

of W.E.'s other

needs relating

to

his

orgamzational skills and study habits and a supportive educational environment

While the court did not agree with all of the IHO's reasoning, it found the IHO's
analysis more compelling and accordingly considered its opinion in weighing the
appropriateness of Northwood as a placement for W.E.'s tenth-glade year

The district court addressed each of the Parents' argutnents, first finding

that the SRO's conclusions regarding W.E.'s rnixed academic progress

were

largely consistent with the record but that this factor should nonetheless slightly

favor reimbursement. The district court observed no error
conclusion that W.E.'s participation

in the SRO's

in outdoor activities was not specially
31,

Case 1-7-3248, DocLrtnetrt l-71, 061L412019, 2586856' Page32 of 54

desig¡ed for his neecls

br-rt

found that the SRO failed to accord appropriate weight

to the significant improvement in W.E.'s attendance, noting that this improvement

"was attribr-rtable to Northwood's boarding feature." Id. at

472. As for

Northwood's accommodations, the district court was particularly concerned by
the SRO's failure to consider W.E.'s use of an iPad, which testimony before the

IHO had indicated "\Mas a'godsend' for W.E." and helped with his organizational

difficulties.

Id. at

473.

The court noted that the fact that the iPad was generally

available to all Northwood students did not change its analysis, as "the Second

Circuit has never indicated that a resource available to all students cannot be
considered for purposes of determining appropriate placement
acldressed a specific need of the

child." Id. Although

if that resource

the district court noted

that the record contained little evidence of the effect of a second study hall
provided to W.E., it found the SRO's failure to even mention the addition of

a

study hall concerning. As for counseling, the district court agreecl with the SRO

that the informal counseling provided by Mr. Mellor was not meaningfully or
appropriately tailored to W.E.'s needs. And the court found that Northwood's
Z4-hour nursing support weighed only slightly in favor of reimbursetnent given

the minimal record evidence showing specific benefits that W.E. received
32

Case l-7-3248, Docurrlletrt 171-, 06lI4l20L9, 2586856 Page33 of 54

Finally, the clistrict court held that Northwood's small class size-which satisfied
W.E,.'s

IEP-favored reimbursement, finding again that the fact that such a feature

is generally available does not undermine its appropriateness in acldressing

a

particular student's needs

In short, the district court noted that while there was "no question the SRO
considerecl

atl of the evidence on the tecoÍd," it found its discussion of

Northwood's appropriateness truncated and inadequate, specificaily in failing to
consider Northwood's small class size, residential component, 24-hour nursing,
ancl the impact of its accommodations on W.E.'s specific

court again noted that

it

needs. Id. at 476. The

reached a differing conclusion regarding the SRO's

opirrion in Case Two due to its more conclusory and unpersuasive nature, but also
because the record for the tenth-grade year was "more robust and offers more

insight into the benefits and accommodations Northwood offered to W.E. to meet

his specific needs." Id. at 477.

it

also considered the equities cle nouo and

concluded that they, too, favored reimbursement, finding that the Paretlts
participatecl in the CSE process with an open mind and afforded the District an

opportunity to construct an appropriate IEP while sirnultaneously pursuing
necessary steps to secure W.E.'s prospective re-enrollment at

JJ

Northwood.

The

Case 17-3248, DocutÏent L7I, 0611412019,2586856, Page34 of 54

court notecl, for instance, Lhat the Parents made another visit to the Sotrthern
Westchester BOCES program irr July 2072, which undermined the Disirict's
argument that W.E.'s enrollment at Northwood was inevitable

C. The District's Counterclaim

The district court also granted the District's motion to amend to adcl a
counterclaim for costs awarded by the IHO in Case

One. The parties cross-

moved for summary judgment on the counterclaim and on July 18, 2077, the
district court awarded summary judgment to the District and vacated the award

of compensatory

education

for the eighth-grade school year

based on its

affirmance of the SRO's ruling that W.E. was not denied a FAPE cluring eighth

grade. On

September L3, 2077, the district court entered final judgment

incorporating its opinions and orders dated November 23,201,6, and Jr-rly 78,2077
The District appealed and the Parents cross-appealed

DISCUSSION

I.

Deference owed to state Hearing and Review officers

"We undergo a circumscrlbed de noao review of a district coult'S grant of

summary judgment

in the iDEA

context because the responsibility for

determirring whether"a challenged IEP will provide a child with a FAPE rests in

34

Case f7 3248, Doct rtlent

1-7

L, 06114120L9, 2586856, Page35 of 54

the first instance with administrative hearing and review officers." M.W. ex reL
S.W. u, N.y.C. Dep't of Educ.,725 F.3d 731,738 (2d Cir. 2073) (internal quotation

marks and brackets omitted). "Summary judgment
therefore,

is

only

in the IDEA context,

'pragmatic procedural mechanism

a

for

reviewing

administrative decisions."' Id, (quotingT.P. ex rel, S.P' u. Mamaroneclc Union Free
Sch. Dist.,554 F.3d 247,252 (2d Cir. 2009) (per

uriam)). "Federal courts reviewing

administrative decisions [under the IDEA] must give 'due weight' to the
administrative proceedings, 'mindful that the judiciary generally lacks the
specialized knowledge and experience necessary to resolve persistent and difficult
questions of educational

policy."'

Grim u. Rhinebeck Cent. Sch. Dist.,346 F.3d377,

3BI (2d Cir. 2003) (quoting Walczølca. Florida Union Free Sclt. Díst,,742F.3d 7I9,729
(2d Cir. TeeB)).

Courts reviewing the state agency's decision must base their decision on
preponderance

of the evidence and may not substitute their own views

a

on

educational policy for those of the school authorities. A.C,,553 F.3d ar 777. Our
review of the state's educational decisions is therefore limited, demanding a level

of scrutiny that is more critical than clear-error but not nearly as complete as de
noao

See C.F. ex rel. R.F.

a. ¡J.y.C, Dep't of Edttc.,746 F.3d 68,77 (2cl Cir. 2074)

35

Case 17-3248. Docttt.nent L7I, 061L412019.2586856, Page36 of 54

Accordingly, what we refer to aS " de noao review"

in fact "only

seeks to

independently verify that the administrative record supports the district court's
determination" regarding the sufficiency of the state's educational decisions. Mr
p, BB5 F.3d at 748 (quoting M.W.,725 F.3d at 138). We similarly afford special
deference

to the district court where its "decision was based solely on the

administrative record." A.C', 553 F .3d at I71

If the SRO and IHO decisions conflict, "the IHO's decision'^uy be afforded
diminished weight."' Id. (quotin g Gagliardo a, Arlington Cent. Sclt. Dist',
105, 113 n.2 (2d.

489 F.3d

Cir.2007)). In other words, we would " defer to the final decision

of the state authorities, that is, the SRO's decision." M'W.,725 F.3d at 739
(internal quotation marks omitted). Yet such deference applies only to the SRO's
"reasoned conclusions"

-

that is, "[r]eviewing courts must look to the factors that

'normally determine whether any particular judgment is persuasive"' and must
ultimately "defer to tire SRO's decision on matters requiring educational expertise
unless Ithe cor-rrt] concludes that the decision was inadequately reasoned, in which
case a better-reasonecl IHO opinion may be consiciered

instead." R.8.,694F.3d

at1B9(quoting M.H.u.N,Y.C.Dep'tof Edttc.,685F.3d277,244,246(2dCir,2012))
"But the clistrict court's determination of the persuasiveness of an administr'ative
36

Case 17-3248, Docutrrent 17L,0611-412OI9,2586856, Page37 of 54

fincling must also be colored by an acute awareness of institutional competence
anci role.

. . . [T]he purpose of the IDE,A is to provide funding to states so

that they can provide a decent education for disabled students consistent with their

traditional role in eclucating their residents." M.H.,685 F.3d at244.

II.

Issues for judicial Review

A. Case One
W.E.'s Eigltth-Grnde

Y enr

The Parents challenge the district court's deference to the SRO's ruling that
the District met its Child Find obligation during W.E.'s eighth-grade

year.

The

Council of Parent Attorneys and Advocates, Inc. has also submitted a brief
amicus a,gine in which

as

it asserts that the District violated its Child Find obligation

with respect to W.E. As noted previously, the IDEA and its implementing
regulations require each State to develop policies and procedures for identifying
and evaluating children with disabilities for special education services. Mr.
BB5

F.3d at749;34 C.F.R.

S

300.1i1. This obligation

P,

extends not only to children

with disabilities but also to those "who are suspected of being a child with

a

disability . . . and in need of speciai education, even thor-rgh they are advancing

from grade to grade." Id. S 300.111(c)(1). "However, 'Child Find does not
ó/

Case 17-3248, Doctnrrerri l-71, 06lI4l2O19, 2586856, Paqe38 of 54

demand that schools conduct a formai evaluation of every struggling student."'

Mr. P, BB5 F.3d at749 (quoting D.K. a. Abington Sch. Dist.,696F.3d233,249 (3d
Cir.2072)).

"To hold a school district liable for failing to identify a student who should
be evaluated for purposes of receiving special education, a claimant must show

that school officials overlooked clear signs of disability and were negligent in
failing to orcler testing, or that there was no rational justification for not deciding
to evaluate." Id. at 750 (internal quotation marks omitted). "A school district
must begin the evaluation process within a reasonable time after the district is on

notice of a likely

disability."

Id.

The SRO n-rled that the District was not on

notice that W.E. might have a disability warranting special education services

prior to the Parents' referral of W.E. to the CSE in April 2011 and that it therefore

did not violate its Child Find obligation. Its thorough opinion found that the
administrative record supported the District's view that W.E. appeared to be

"making progress within the general curriculum despite his absences."

Sp

Srpp. App.77. It also noted that the District worked with the Parents to enable
W.E. to catch up on schoolwork despite his extensive absences, citing, inter ølia,

laudatory contemporaneous retnarks made by M.S. about the District and its

3B

Case L7-3248, Doctttrrent L71,. 061I412O19,2586856, Page39 of 54

teachers, as

well as M.S.'s decision to caucel a January 2011 Section 504 review

meeting due to her commr-rnicating that

"l think we have everything in place."

Id. at70

In arguing that the District was on notice of W.E.'s potential disability much
earlier, the Parents point out that by mid-January

2071.,

W.E. had already missed

more days of school than permitted by District policy fol the entire year, received

incompletes in three subjects, droppecl his Enriched English class, and that his
grade in Algebra had fallen from a93 to

a78.

With the exception of W.E. having

dropped Enriched English, the SRO's opinion indicates awareness of these facts,
however, and instead reaches a contrary conclusion that it was not until the third
quarter of W.E.'s eighth grade year that his "absences began to compromise his

ability to achieve academically." Icl. at77. And as the district court noted, the
SRO also considered W.E.'s standardized test scores and feedback from teachers,

thus construing the meaning of "academic success" more broadly than the IHO
had done-an analysis it was entitled to undertake.

See

W.A.,21,9 F. Stpp. 3d at

459

BecauSe we must defer

to the SRO's "reasoned conclusions" On "matters

requir-ing educational expertise," R.E., 694 F.3d at 789, we hold that the distlict

39

case l_7-3248. Docurl]errt l-71, 06l14120L9, 2586856, Page4o of 54

court properly cleferr.ed to the SRO on the question of wirether the District violated

its Child Find obligation for W.E.'s eighth-grade schooi year. The qr-restion of
whether the District should have taken rnore aggressive steps in the face of
competing signals arising from various interactions with the Parents and with the

District's personnel regarding W.E.'s progress in the general education curriculum
is an issue that calls for expertise; it is therefore an issue on which we must defer

to the educational experts. In adclition, the district court correctly noted that
"[t]he crux of the SRO's decision, however, was not so tnuch that there was no
basis to suspect that W.E. may be disabled, but that there was no reason to suspect
that speciøl eclu.cntion was needed to remedy that
Zd,

at 457. This is a conclusion that a reviewing

disabllity." w.A.,

279

F

. Stpp.

cor,rrt should not disturb absent

an objective flaw in the SRO's reasoning. For similar reasons, we decline to

consider the argument presented

by

amicus that school avoidance

is

a

"manifestation of disability" that demanded intervention when the State was in
the best position to assess whether and to what extent W.E.'s absences warrantecl
special education services.

In light of our holciing that W.E. was not denied

year, we decline, as the district court did,

40

a

FAPE for his eighth-grade

to reach the Parents' request for

case 17-3248. Doclr.nent

compensatory education for that

171_,

0611412019, 2586856 Page41 of 54

year.

For the same reason, we affirm the district

court's July 78, 2077 decision vacatirrg the SRO's award of compensatoly
counseling services for eighth

grade. While

the Parents assert that the award was

issued in connection with the deniai of a FAPE for ninth grade because

it

was

intended to reimburse the Parents for therapy sessions that Dr. Williams relied
upon to develop W.E.'s ninth-grade IEP, the IHO opinion in Case One makes clear

that the award of counseling reimbursement was issued in connection with the
denial of

a

FAPE for eighth

grade.

We are thus not inclined to override the State's

explicit attribution. Nor do we find compelling the Parents' argument that the
District's alteged failure to appeal the IHO's limited award of reimbursement for
Dr. Williams's psychiatric services rendered the district court without jurisdiction

to grant the District's motion to amend to seek recovery of these costs. As the
district court found, it "defies common sense to suggest" that the District did not
administratively appeal the reimbursement award when there is no question that
the District cross-appealed the portion of the IHO's decision that found that the

District had violatecl its Child Find obligation and denied W.E. a FAPE for his
eighth-grade

year. See W.A',2077

WL3066888, at"9

47

Case 17-3248, Doctlnretrt l-71, 0611"412OI9, 2586856, Pacje+2 of 54

In sum, we affirm in all respects the district court's judgment

and

accompanying opinion and orders regarding the eighth-grade school year

Wtether Nortluuood Wøs ûn Appropriate Placement for

11.

W.

E.'s N inth-Gr ade Y enr

Courts apply the three-step "BurlingtonlCal'ter" test to determine whether

parent is entitled to retroactive tuition reimbursement. C.F.,746F.3d

first

assess whether the

ar76.

a

We

District provided a FAPE; if it did not, we move on to the

second and third steps, under which the parents bear the burden of showing that

their unilateral private school placement was appropriate for the child's needs and

that the equities work in their favor. Id;

see also

A.C.,553 F.3d at 171'-72- The

District does not contest that it failed to provide W.E. a FAPE for W.E.'s ninth- or
tenth-grade school years, and we therefore move directly to the second step of the
analysis

At step two, the private school placement "must be reasonably calculated to
enable the child to receive educational benefits." M.H.,685 F.3d a|252 (internal

quotation marks omitted). "Grades, test scores, and regular advancement may
constitute evidence that
assessing the propriety

a child is receiving educational benefit, but

courts

of a unilateral placement consider the totality of the

circumstalrces in determining whether that placement reasonably serves a child's
42

Case 17-3248, Doctrment 171, 0611-412019. 2586856 Page43 of 54

F -3d 356, 364

(2d Cir

2006). Even where the private placement yields evidence of the child's

success/

inclividual needs." Franlc G. a. Bd. of Edr'tc, of Hyde Parlc, 459

irowever
courts should not disturb a state's denial of IDEA reimbursement where the
chief benefits of the chosen school are the kind of advantages that might be
preferred by parents of any child, disabled or not. Rather, the unilateral
private placement is only appropriate if it provides education instruction
a handicapped child.
lspeciatt.yl designed to meet tlne unique needs of

M.H.,685 F.3d at252 (quoting Gagliardo,4Bg F.3d at 115 (internal quotation marks
and alterations omitted).

Our conclusion that the SRO's opinion in Case One was sufficiently
reasoned and adequately supported by the administrative record supports the
cleference that the district court conferred on the SRO on issues demanding its

educational expertise as concerns W.E.'s ninth-grade

year. We therefore affirm

the district court's deference to the SRO's ruling that Northwood School was not
an appropriate placement entitling the Parents to tuition reimbursement for ninth

grade. While the Parents argue that the State failed to consider fully
Northwood's responsiveness

to

W.E.'s unique needs and the significant

impr.ovements he experienced while enrolled at the private school-including his

momentous increase in attendance-the SRO's opinion reflects that it considered

43

Case 17-3248, Docunrerrt 171, 0611-41201'9, 2586856, Page++ of 54

the relevant eviclence of W.E.'s progress. For instance, the SRO noted that "the

heari¡g record supports a finding that the student's social/emotional and
academic functioning improved since the end of the 2070-77 school year,. . . and

tlrat the stuclent achieved some progress academically during the 20'17-72 school
year" while simultaneously citing reports from W.E.'s teachers describing his
inconsistent level of academic effort, timeliness, and preparation. Sp. Supp. App

84.

The SRO also properly cited this Court's decision in Gagl.iardo, 489 F.3d at 115,

for the proposition that a student's progress in a unilateral placernent, while
relevant to the court's inquiry, cannot alone demonstrate the appropriateness of
tirat placement.
Indeecl, the crux of the SRO's decision was not that W.E. faiied to progress

at Northwood, but, rather, that:

the hearing record lacks evidence demonstrating that INorthwood]
provided instruction that was designed to address the student's tendencies
to develop physical symptoms and exhibit school avoidance when under
stress, or his need to develop coping skills to manage stress related to
academics and social interactions, and to improve his organizational/study
skills related to academics, and, that the instruction that the student received
dr,rring the 2011-12 school year
at INorthwood].

wa, in fact, available to all students enrolled

Id. at 84-85. The SRO thus concluded that placing W'8. in Northwood's
"residential setting-which merely eliminated his exposure to the public school
44

Case 17-3248, Docunrerrt l-71, 061L412019, 258G856, Page45 of 54

environrnelt and to activities that he perceived as stressful-is not sufficient in
this case to meet the parents' burden to establish that [Northwood's] program
provicled the student with educational instruction specially designed to rneet his
rrnique needs." Ict. at

85. Instead,

the SRO found that Northwood's educational

and environmental benefits were those "that might be preferred by parents of any

child, disabled or ¡1ot," and therefore did not satisfy the IDEA's definition of
special eclucation

.

Id. (quoting Gøglinrdo,4B9 F.3d at 115).

Because the question

of whether a private school placement provided

special education services is precisely a question on which we defer to educational

experts,

see, e,g.,

Doeu,

Ë,.

Lyme Bd. of Edr,rc,,790F.3d 440,457-52 (2d Cir. 2015), and

because the SRO's considered opinion reflects that it viewed W.E.'s migraines as

stemming from underlying emotional and psychological issues that Northwood
was not equipped to address, we hold that the district court properly deferred to

the SRO notwithstanding its disagreement with certain aspects of the SRO's

opinion. We therefore do not reach the issue of whether the equities favored
reimbursement

B.

Case Two

Wrcther Nortltwood Was nn Appropriate Plncentent for W.E.'s
Tenth-Grade Yenr
45

Case l-7-3248, Doctrnrerrt 171-, 0611'412AI9, 2586856, Page46 of 54

As alreacly noted, while the same SRO presided over the administrative
appeals in both Case One and Case Two, the district court found its opinion in the

iatter case conclusory and unpersuasive and instead took the IHO's opinion,

which

it

founcl more convincing, into account. "Where the IHO and SRO

disagree, reviewing courts are not entitled to adopt the conclusions of either state

reviewer according to their own policy preferences or views of the evidence; courts
must defer to the reasoned conclusions of the SRO as the final state administrative

determination." M.H.,685 F.3d at 246. Because we are persuaded that the
district court improperly substituted its judgment on matters of educational policy

for that of the SRO, and in light of the district court's own acknowledgrnent that
"It]here is no question the SRO considered all of the evidence on the record ," W.4.,
Z7g F. Srpp. 3cl at 476, we

hold that the district court improperly failed to accord

deference to the SRO's ruling that Northwood School was not an appropriate
placement for W.E.'s tenth-grade year

First, we perceive no qualitative difference in the SRO's opinions in Case
One and Two that wor,rld entitle the formel but not the latter to deference. The
clistrict coLrrt's characteri zation of the SRO's opinion in Case Two

as

"dedicat[ing]

barely two pages to actually analyzing whether Nortirwood was an appropliate
46

Case 17-3248. Doct¡tllent 171, O61L4120L9,2586856, Page47 of 54

placemen t," Id. at 470, is

unfounded. It ignores the SRO's comprehensive review

of the reievalt recorcl evidence documenting, inter alia, W.E.'s progress, reports
from W.E.'s Northwood teachers and clinicians, and the various accommodations

and amenities W.E. received at Northwood-all of which informed the SRO's

ultimate conclusion as to whether Northwood provided W.E. special education
within the meaning of the IDEA
The district court additionally criticized the SRO's opinion as omitting
certain considerations, but the record reveals that, by and large, the SRO did
consider the same factors that the district court found dispositive and instead

differed as to their import. For example, the district court took issue with the
thoroughness

of the SRO's discussion of W.E.'s tenth-grade

accommodations,

specifically focusing on the way in which an iPad Northwood provided benefitted
W.E.'s academic progress. According to the district court, "the SRO made no
reference to the clevice in its analysis of whether Northwood was an appropriate

placement." Id. at473. In fact, however, the SRO opinion accounts for testimony
concerning the iPad
instructional

in

several places, specifically noting its use "as an

or learning aid."

S,rpP. App. 1'04. While the district court

emphasized testimony from W.E.'s western civilization teacher indicating "that

47

Case

1-7

-3248. Docurlretrt 17L, 0611-412OI9, 2586856, Page48 of 54

the iPad was a 'godsenci' for W.E." , W.A., 279 F. Stpp. 3d at 473, the SRO
highlight

ed.,

inter alin, other testimony from W.E.'s English teacher and counselor,

indicating that he thought the iPad was a good match but that he could not provide
quantifiable evidence of the way W.E.'s accommodation plan had benefitted him.
The SRO also noted comments from W.E.'s western civilization teacher stating that
W.E. used the iPad for notetaking and homework and that it lessened his need for

organizational helP.

The district court also faulted the SRO for failing to discuss the vast
improvement in W.E.'s attendance while at Northwood. But the SRO observed
that the decreased frequency of W.E.'s headaches yielded "significantly improved
school attendance," Supp. App. 100, later stating that

"it is without question that

during the 2012-1,3 school year, the student exhibited progress in the sense that
except when experiencing a migraine, he attended classes consistently, achieved
grades in

the'A-' to'C+' range, and demonstrated increased maturity and ability

to socially interact with peers," Id. at 109. What is more, while W.E.'s improved
attendance at Northwood undoubtedly serves as compelling indicia of progress,

it was from eighth to ninth gracle that W.8,. went from rnissing over 100 days of
school to only nine the following

year. Yet the district court dicl not fincl this
48

Case 17-3248, DocLtt]letrt 77I,061L41201-9,2586856, Page49 of 54

enormous improvement vitai enough to overturn the SRO's assessment in

Case

One. Between ninth and tenth grade, by contrast, W.E.'s absences essentially
remained the same, and so the clistrict court's emphasis on W.E.'s attendance in
the latter school year cannot bear the weight assigned to it.

Outside of W.E.'s aLtenclance and his use of an iPad, the district court
lamented the SRO's failure to discuss a second study hall Northwood offered

during the tenth-gracle school yearr yet simultaneously noted that the record
contained little evidence of the study hall's benefit. It also critiqued the SRO's

lack of attention to Northwood's small class size and boarding-school feature,

which, accord.ing to the clistrict court, "provided W.E. benefits specific to his
unique needs." W.A.,279

F. Sr-rpp.

3d at

476.

The SRO's opinion, however, does

reflect that it considered Northwood's small student-to-teacher ratio and the way

in which it enabled "discussion-based learning." Snpp. App.1'07. In so doing it
cited Franlc G,, 459 F.3d at 365, where this Court recognized that small class size

falls within the IDEA's definition of special education but declined to decide
whether small class size alone could render a private placement appropriate

This Court, moreover, recently recognized that small class size "is the kind of
educational and environmental aclvantage that might be preferred by parents of

49

Case 17-3248, Docutnetri 17I, 06114120L9' 2586856, Page5o of 54

any child, disablecl or

not."

Doe, 790 F.3d at 452 (internal quotation marks and

alterations omitted); see nlso GngLinrdo, 489 F.3c1 at

115. The district

court

otherwise agreed with the SRO's characteri zation of W.E.'s academic performance,
as

well as the SRO's conclusions that NorLhwood did not provide meaningful

counseling and that its outdoor programming did not render

it an appropriate

placement.6

In short, the district court's decision not to defer to the SRO's opinion on the
basis of the SRO's putatively perfunctory analysis is not supported by the record.
Cf. C.L. a. Scarsdnle l-lnion Free Sch. Dist.,744F.3d 826, 838 (2d Cir. 201'4) (declining

to afford deference to SRO where its opinion "\ /as not sufficiently reasoned or
carefully considered because the SRO dicl not consider or comment on any of the
specific services provided to Ithe student at the private school] or the progress that
the record shows he made at the school").
Second, rather than "credit[] the conclusions that were most consistent with

its own subjective analysis," the reviewing court should only reject the

SRO's

The clistrict court was essentially arnbivalent about the impact of nursing services, though its
observation that "[ilt strains creclulity to suggest that an around-the-clock nurse staff, one of
whom residecl on the same floor as W.E,., . . . was uot an educational feature that worked to W.E.'s
specificbenefit," W.A.,279 F.Supp.3ct at4TS,r,i,ouldappeartoapplywitireqr-ralforcetoW.E.'s
nipth grade year, where the district court reached a contrary conclusiotr.
6

50

Case 17-3248, Doctttllent 171. 061I412O19,2586856, Pagesl of 54

conclusions

if it finds that they are noi supported by a preponderance of the

evidence. M.H.,685 F.3d at24B. I-{ere, tire district court did not address whether
the SRO's conciusions were supported by a preponderance and instead appeared

to concluct a true de noao analysis of whether each factor favored reimbursement,

ultimately holding that the SRO "failed to give adequate weight to many of
Northwood's most beneficial features and erroneously discounted the value of
some of those features merely because they were generally available to all

students." W.A.,

219 F.

Srpp. 3d at 470. We agree with the district court that

a

resource that benefits an entire student population can constitute special education

in certain circumstances. Under our precedents, however, a reviewing court

is

not entitled to overrule the State on a question of educational poiicy-such

as

whether a generally available resource is specially tailored to a particular disabled

student's needs-based merely

on its own disagreement with the

State's

evaluationof thatt'esource. SeeM.H.,685F.3d at247;seeølsoCerraa.PawlingCent.
Sclt, Dist., 427 F.3d.786, 196 (2d Cir. 2005) (For a reviewing court to render its own

determination on a matter of educational policy,
evidence

in the record

it

must point to "objective

suggesting that the SRO has reached an erroneous

conclusion."). In ruling that Northwood School was an appropriate placement
51

Case 1-7-3248, Doctltlent 17I, 061L412019.2586856, Page52 of 54

for W.E.'s tenth-grade year, the clistrict court appeared to do jr,rst that-conducting
its own totality of the circumstarrces analysis in which it substituted its subjective
assessment for that of the State

As in Case One, the SRO's ruling was grounded in its conclusion that the
record lacked evidence showing that Northwood provided W.E. with "specially

designed instruction

to

meet his ongoing need

to

develop insight and

understanding into what triggered his stress and anxiety, and positive coping
skitls to address stress and decrease anxiety; difficulties that the hearing record

showed not only contributed to the student's tendency to develop migraine
headaches, but also to exhibit organizational deficits and avoidance behaviors'"

Srpp. App. 109. While the Parents highlight the many benefits Northwood

provided W.E., endorsements

of the private school by

W.E.'s medical

professionals, and various emblems of W.E.'s academic, social, and emotional

growth during his tenure, many of the features ihat appear to have abated W.E.'s
stress and migraines are those that any parent would desire in an educational

setting-namely, smaller classes, closer attention by faculty and staff bucolic
surroundings in a residential environment, and use of an iPad for organization

and note-taking. Thus, even though the record may support the view that
52

Case 17-3248, Docutrretrt l-71, 0611412019, 2586856. Page53 of 54

Northwood was an excellent placement for W.E.,
conclusion that Northwood was

not

it

also supports the SRO's

methodologically

or thelaper-rtically

structured in the way required for reimbursemenl under the IDEA.

489 F.3d at

115. This educational policy

See Gaglíardo,

judgment likewise reinforces the

deference that we beiieve we must give the SRO's opinion.

CONCLUSION
We affirm the district court's November 23, 2016 opinion and order to the

extent

it deferred to the SRO's conclusions regarding

the District's Child Find

obligation and Northwood's failure to provide W.E. special education during the
ninth-grade academic year. Because the district court failed to confer appropriate
deference to the SRO's analysis regarding Northwood's lack of specially designed

instruction tailored to W.E.'s unique needs during the ienth-grade school year, we
reverse the district court's November 23, 2076 opinion and order to the extent it

held that Norihwood School was an appropriate placement fol that school year
and accordingly vacate its award of tuition reimbursement. We also affir"m the

district court's July 18, 2077 opinion ancl order granting the District's motion for

summary judgment and denying the Parents' ct'oss-motion

53

for

summary

Case 17-3248, Document l-71, O6lL4l2OI9, 2586856, Page54 of 54

judgment and vacating the award of compensatory education for the eighth-grade
school year
Because the District is the prevailing party both on appeal and on the cross-

appeal, costs under Fed. R. App. P. 39(a) shall be taxed against Appellees-Cross-

Appellants.

A True

topy

Catherine O'Hagan
Unlled States

rk

econd Clrcult

tç*'-

